Office of Material Loss Reviews
Report No. MLR-10-031


Material Loss Review of Colonial Bank,
Montgomery, Alabama




                                    April 2010
                                       Executive Summary

                                       Material Loss Review of Colonial Bank,
                                       Montgomery, Alabama
                                                                                       Report No. MLR-10-031
                                                                                                   April 2010

Why We Did The Audit

On August 14, 2009, the Alabama State Banking Department (ASBD) closed Colonial Bank (Colonial)
and named the FDIC as receiver. On October 24, 2009, the FDIC notified the Office of Inspector General
(OIG) that Colonial’s total assets at closing were $25.2 billion and that the estimated loss to the Deposit
Insurance Fund (DIF) was $2.7 billion. As of March 31, 2010, the estimated loss to the DIF had
increased to $3.8 billion. As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the
OIG conducted a material loss review of the failure of Colonial.

The audit objectives were to (1) determine the causes of the financial institution’s failure and resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution, including
implementation of the Prompt Corrective Action (PCA) provisions of section 38. As discussed
throughout our report, Colonial switched its charter from a national to a state nonmember bank in June
2008, just 14 months prior to its failure. As a result, our material loss review also addresses the Office of
the Comptroller of the Currency’s (OCC) supervisory activities as the primary federal regulator (PFR)
and the FDIC’s monitoring of the bank as backup federal regulator from 2004 through 2008.

Background

Colonial was a state-chartered nonmember bank that was insured in 1934. As shown in the following
table, the bank converted its charter three times between 1997 and 2008, most recently in June 2008 when
it converted from a national charter to a state-chartered nonmember bank.

Colonial’s Charter Changes, 1997 to 2008
                               Primary Federal                 Primary Federal
  Effective Date of
                                  Regulator                       Regulator
  Charter Change
                               (Change From)                     (Change To)
                                                          Board of Governors of the
    June 13, 1997                    FDIC
                                                           Federal Reserve System
                          Board of Governors of the
   August 8, 2003                                                       OCC
                           Federal Reserve System
    June 10, 2008                   OCC                                 FDIC
Source: The FDIC’s Virtual Supervisory Information on the Net system.

For the period of our review, the bank was supervised by the OCC, the FDIC, and the ASBD.

Colonial was headquartered in Montgomery, Alabama and had 346 offices located in Alabama, Georgia,
Florida, Texas, and Nevada. The bank segmented its operations into five regional bank groups and one
mortgage warehouse lending (MWL) operation, located in Orlando, Florida. Asset growth averaged
12 percent, annually, from 2002 through 2007. Colonial’s loan portfolio was concentrated in commercial
real estate with an emphasis on acquisition, development, and construction (ADC) loans. The bank’s
ADC loan portfolio, higher-risk security investments, and MWL-related loans were concentrated within
the high-growth real estate markets of Florida, Georgia, and Nevada and were negatively impacted when
these real estate markets experienced a downturn in 2007.
   Executive Summary
                                      Material Loss Review of Colonial Bank,
                                      Montgomery, Alabama
                                                                                      Report No. MLR-10-031
                                                                                                  April 2010


Audit Results

Causes of Failure and Material Loss

Colonial failed due to a liquidity crisis brought on by (1) bank management’s failure to implement
adequate risk management practices pertaining to its significant concentrations in ADC loans and
investments in higher-risk, mortgage-backed securities; (2) deficiencies in loan underwriting, credit
administration, and risk analysis and recognition; and (3) an alleged fraud affecting its MWL operation.
In the years preceding the bank’s failure, the OCC, the FDIC, and the ASBD each expressed concern
about Colonial’s risk management practices and made recommendations for improvement. However, the
actions taken by Colonial’s Board and management to address these concerns and recommendations were
not timely or adequate.

Weaknesses in Colonial’s risk management practices translated into a decline in the quality of the bank’s
ADC loans, mortgage-backed securities, and MWL operation, as the bank’s primary real estate lending
markets began to deteriorate in 2007. From January 2006 to June 2009, the bank charged off
$998 million in loans, of which $752 million (75 percent) were losses within the ADC loan portfolio. In
addition, loan delinquencies significantly increased and, as of June 2009, 25 percent of the bank’s ADC
loan portfolio was 90 days past due or on nonaccrual. The loan-related losses and provisions associated
with this decline depleted earnings, eroded capital, and impaired the bank’s liquidity position. As of June
2009, the bank also had $377 million in unrealized securities losses in its Other Mortgage-Backed
Securities portfolio, which increased to a realized loss of $760 million upon sale of the securities by the
FDIC through its resolution process. Further, the FDIC estimated that the bank incurred an approximate
loss of $1.7 billion due to activities related to the MWL operation. Ultimately, the ASBD closed Colonial
based on a determination that the institution did not have a sufficient level of liquidity, losses would
deplete capital, and the bank had no credible prospect for raising additional equity.

Regulatory Supervision of Colonial

When the bank became a state-chartered institution in June 2008, the FDIC promptly devoted substantial
resources to overseeing Colonial, primarily through a continuous on-site examination of the bank. The
FDIC served as the bank’s PFR for approximately 14 months – from June 2008 to August 2009. During
this period, the FDIC identified and addressed key risks in Colonial’s management practices and
operations – including some that the OCC had already reported on and was in the process of addressing
through rating downgrades and a Cease and Desist Order (C&D) – and brought these risks to the attention
of the bank’s Board and management through regular discussions and correspondence, timely targeted
reviews and memoranda, and an examination report. These risks included weak risk management
practices pertaining to the bank’s ADC loan concentrations, loan underwriting, credit administration, and
risk analysis and recognition.

To address the weaknesses identified at the institution, the FDIC utilized various tools to obtain corrective
actions, including recommendations, interim rating downgrades, and informal and formal actions. Within
3 months of becoming Colonial’s PFR, the FDIC downgraded the bank’s composite rating and, 3 months
later, executed a Memorandum of Understanding (MOU) with Colonial. Six months after executing the
MOU, the FDIC further downgraded the bank and issued a C&D. Although bank management made
some improvements to the bank’s operations, its actions were insufficient to prevent Colonial’s failure.
   Executive Summary
                                       Material Loss Review of Colonial Bank,
                                       Montgomery, Alabama
                                                                                        Report No. MLR-10-031
                                                                                                    April 2010

Based on the supervisory actions taken with respect to Colonial, the FDIC properly implemented
applicable PCA provisions of section 38. However, by the time Colonial’s capital levels fell below the
required thresholds necessary to implement PCA, the bank’s condition had deteriorated to the point at
which the institution could not raise additional capital in the time period necessary to prevent its failure.
As a result, the ASBD closed Colonial on August 14, 2009.

The FDIC’s Monitoring of Colonial as Backup Regulator

In its role as insurer and backup regulator, the FDIC is responsible for regularly monitoring and assessing
potential risk to the DIF at all insured institutions, including those for which it is not the PFR. In the case
of Colonial, from 2004 to 2008, the FDIC performed its backup monitoring activities in accordance with
policies, procedures, and practices in effect at the time. Case managers reviewed OCC examination
reports and other financial data and produced reports that indicated their assessment of risk at Colonial
was consistent with that of the OCC. Further, at the end of 2007, the FDIC’s case manager noted that a
high concentration in ADC and CRE loans, primarily in Florida, were keys risks and regulatory
concerns—as the OCC had also concluded at that time.

On April 9, 2010, the OIGs of the FDIC and the U.S. Department of the Treasury jointly issued a report,
entitled, Evaluation of Federal Regulatory Oversight of Washington Mutual Bank (Report No. EVAL-
10-002). The report provides a comprehensive look at a failed institution from both the primary and
backup regulatory perspective. The report highlighted two major concerns related to deposit insurance
regulations and the interagency agreement governing backup authority and included two
recommendations – which the FDIC is working to implement – to address these concerns.

Regulator Comments

We issued a draft of this report to FDIC management on April 9, 2010. We also provided the draft to the
ASBD and the OCC for their review. The FDIC’s Director of the Division of Supervision and Consumer
Protection (DSC) and the ASBD provided formal written comments on April 23, 2010. The OCC
provided informal feedback on the draft report. The views of the FDIC, ASBD, and OCC have been
incorporated in our report, as appropriate.

In its response, DSC reiterated the OIG’s conclusions regarding the causes of Colonial’s failure. With
regard to our assessment of the FDIC’s supervision of Colonial, DSC’s response stated that after
converting to a state-chartered institution in June 2008, Colonial was placed under DSC’s continuous
examination program, and ratings were adjusted and corrective actions taken as warranted by Colonial’s
practices and condition. DSC also stated that “FDIC has the authority to conduct special or ‘back-up’
examinations of insured institutions for which FDIC is not the primary federal regulator. However, under
the terms of an Interagency Agreement with the other PFRs, that examination authority is limited for
insured institutions that have a composite rating of “1” or “2.” In recognition that greater information
sharing is needed to adequately assess risks to the Deposit Insurance Fund, the FDIC has proposed to the
other PFRs modifications to strengthen that Interagency Agreement. We are hopeful that a consensus can
be reached on those changes in the near future.”

In its comments, the ASBD stated that attempts by regulators over the years to discourage or limit
Colonial’s CRE and ADC exposures were viewed as attempts to micromanage the bank and change its
   Executive Summary
                                     Material Loss Review of Colonial Bank,
                                     Montgomery, Alabama
                                                                                    Report No. MLR-10-031
                                                                                                April 2010

basic business model. With regard to the cause of failure, the ASBD indicated that our report is accurate.
In commenting on the supervision of Colonial, the ASBD reiterated our findings regarding the
effectiveness of coordination among the regulators after Colonial converted to a state-chartered bank in
2008 and agreed with our assessment of the FDIC’s post-conversion supervision of the institution. The
ASBD also provided its views on the policy statement on regulatory conversions, PCA guidelines, and the
FDIC’s exercise of backup authority.
                                 Contents
                                                                      Page

Background                                                              2

Causes of Failure and Material Loss                                     3
  ADC Loans and Other Mortgage-Backed Securities Concentrations         4
  Loan Underwriting, Credit Administration, and Risk Analysis and       9
    Recognition Practices
  Mortgage Warehouse Lending Operation                                 10
  Available Liquidity                                                  12

Regulatory Supervision of Colonial                                     13
  Supervisory History                                                  13
  Supervisory Response to Key Risks                                    16
  Implementation of PCA                                                21

The FDIC’s Monitoring of Colonial as Backup Regulator                  22

Regulator Comments                                                     23

Appendices
  1. Objectives, Scope, and Methodology                                25
  2. Glossary of Terms                                                 28
  3. Acronyms                                                          30
  4. Corporation Comments                                              31

Tables
   1. Colonial’s Charter Changes, 1997 to 2008                          2
   2. Selected Financial Information for Colonial, 2005 to 2009         3
   3. Colonial’s Examination History, 2004 to 2009                     15
   4. The OCC’s Identified Concerns and the FDIC’s Follow-up           20
      Response
   5. Colonial’s Capital Levels Relative to PCA Thresholds for Well    22
      Capitalized Institutions

Figures
   1. Composition and Growth of Colonial’s Loan Portfolio               4
   2. ADC Loan Concentrations (Loans as a Percentage of                 6
      Total Capital)
   3. Colonial’s Other Mortgage-Backed Securities Valuations            8
   4. Colonial’s MWL Composition and Growth                            11
Federal Deposit Insurance Corporation                                               Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                                  Office of Inspector General


DATE:                                     April 23, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection

                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of Colonial Bank, Montgomery,
                                          Alabama (Report No. MLR-10-031)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review (MLR) of the failure of
Colonial Bank, Montgomery, Alabama (Colonial). The Alabama State Banking
Department (ASBD) closed the institution on August 14, 2009, and named the FDIC as
receiver. On October 24, 2009, the FDIC notified the OIG that Colonial’s total assets at
closing were $25.2 billion and that the estimated loss to the Deposit Insurance Fund
(DIF) was $2.7 billion. As of March 31, 2010, the estimated loss to the DIF had
increased to $3.8 billion.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this MLR were to (1) determine the causes of Colonial’s failure and the
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of the
institution, including the FDIC’s implementation of the PCA provisions of section 38 of
the FDI Act. As discussed throughout this report, Colonial converted its charter from a
national to a state nonmember bank in June 2008, just 14 months prior to its failure. As a
result, our MLR also describes the Office of the Comptroller of the Currency’s (OCC)

1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
supervisory activities as the primary federal regulator (PFR) from 2004 through 2008 and
briefly addresses the FDIC’s monitoring of the bank as backup federal regulator during
that time.

This report presents our analysis of Colonial’s failure and the supervisory efforts to
ensure that the Board of Directors (Board) and management operated the institution in a
safe and sound manner. The report does not contain formal recommendations. Instead,
as major causes, trends, and common characteristics of institution failures are identified
in our MLRs, we will communicate those to FDIC management for its consideration. As
resources allow, we may also conduct more in-depth reviews of specific aspects of the
FDIC’s supervision program and make recommendations as warranted. Appendix 1
contains details on our objectives, scope, and methodology; Appendix 2 contains a
glossary of terms; and Appendix 3 contains a list of acronyms. Appendix 4 contains the
Corporation’s comments on this report.


Background
Colonial was a state-chartered nonmember bank that was insured in 1934. As shown in
Table 1, the bank converted its charter three times between 1997 and 2008, most recently
in June 2008 when it converted from a national charter to a state-chartered nonmember
bank.

Table 1: Colonial’s Charter Changes, 1997 to 2008
                               Primary Federal                 Primary Federal
  Effective Date of
                                  Regulator                       Regulator
  Charter Change
                               (Change From)                     (Change To)
                                                          Board of Governors of the
    June 13, 1997                    FDIC
                                                           Federal Reserve System
                          Board of Governors of the
   August 8, 2003                                                    OCC
                           Federal Reserve System
    June 10, 2008                   OCC                              FDIC
Source: The FDIC’s Virtual Supervisory Information on the Net (ViSION) system.

For the period of our review, the bank was supervised by the OCC, the FDIC, and the
ASBD.

Colonial was headquartered in Montgomery, Alabama and had 346 offices located in
Alabama, Georgia, Florida, Texas, and Nevada. The bank segmented its operations into
five regional bank groups and one mortgage warehouse lending (MWL) operation,
located in Orlando, Florida. Asset growth averaged 12 percent, annually, from 2002
through 2007. Colonial’s loan portfolio was concentrated in commercial real estate
(CRE) with an emphasis on acquisition, development, and construction (ADC) loans.
The bank’s ADC loan portfolio, higher-risk security investments, and MWL-related loans
were concentrated within the high-growth real estate markets of Florida, Georgia, and
Nevada and were negatively impacted when these real estate markets experienced a
downturn in 2007.

                                                    2
Colonial was wholly-owned by Colonial BancGroup, Inc., a one-bank holding company.
The bank’s former Chairman of the Board, President, and Chief Executive Officer
controlled 4 percent of the holding company stock and was the largest individual
shareholder. Table 2 summarizes selected financial information for Colonial for the
quarter ending June 30, 2009, and for the 4 preceding calendar years.

Table 2: Selected Financial Information for Colonial, 2005 to 2009
       Financial Measure          June-09         Dec-08           Dec-07    Dec-06       Dec-05
    Total Assets ($000s)         25,455,112     25,638,730     25,937,048   22,730,585   21,394,976
    Total Deposits ($000s)       20,072,099     18,778,726     18,610,966   16,249,435   15,545,282
    Total Loans* ($000s)         16,233,255     16,180,314     17,235,875   16,790,079   15,830,601
    Net Income (Loss) ($000s)     (727,340)      (849,008)        192,136      280,117      243,938
Source: Uniform Bank Performance Reports (UBPR) for Colonial.
* Total Loans net of Allowance for Loan and Lease Losses (ALLL).



Causes of Failure and Material Loss
Colonial failed due to a liquidity crisis brought on by (1) bank management’s failure to
implement adequate risk management practices pertaining to its significant
concentrations in ADC loans and investments in higher-risk, mortgage-backed securities;
(2) deficiencies in loan underwriting, credit administration, and risk analysis and
recognition; and (3) an alleged fraud affecting its MWL operation. In the years preceding
the bank’s failure, the OCC, the FDIC, and the ASBD each expressed concern about
Colonial’s risk management practices and made recommendations for improvement.
However, the actions taken by Colonial’s Board and management to address these
concerns and recommendations were not timely or adequate.

Weaknesses in Colonial’s risk management practices translated into a decline in the
quality of the bank’s ADC loans, mortgage-backed securities, and MWL operation, as the
bank’s primary real estate lending markets began to deteriorate in 2007. From January
2006 to June 2009, the bank charged off $998 million in loans, of which $752 million
(75 percent) were losses within the ADC loan portfolio. In addition, loan delinquencies
significantly increased and, as of June 2009, 25 percent of the bank’s ADC loan portfolio
was 90 days past due or on nonaccrual. The loan-related losses and provisions associated
with this decline depleted earnings, eroded capital, and impaired the bank’s liquidity
position. As of June 2009, the bank also had $377 million in unrealized securities losses
in its Other Mortgage-Backed Securities portfolio, which increased to a realized loss of
$760 million upon sale of the securities by the FDIC through its resolution process.3
Further, the FDIC estimated that the bank incurred an approximate loss of $1.7 billion
due to activities related to the MWL operation. Ultimately, the ASBD closed Colonial
based on a determination that the institution did not have a sufficient level of liquidity,
losses would deplete capital, and the bank had no credible prospect for raising additional
equity.

3
 On August 14, 2009, the FDIC sold these securities to Branch Banking and Trust Company (BB&T)
under a Purchase and Assumption Agreement subject to a Commercial Shared-Loss Agreement.

                                                   3
ADC Loans and Other Mortgage-Backed Securities Concentrations

Colonial’s business strategy resulted in concentrated assets in ADC loans and higher-risk
securities in high-growth and dispersed geographic markets, without sufficient mitigating
controls. As the economy deteriorated, bank management was slow to recognize and
effectively react to the bank’s deteriorating condition. Colonial’s asset quality problems
were exacerbated by the bank’s concentrations. As of June 2009, the bank’s ADC loans
equaled 274 percent of total capital and its portfolio of Other Mortgage-Backed Securities
equaled 103 percent of total capital – based on the securities’ amortized cost. Colonial’s
management permitted these loan and security concentrations to exist without adequate
risk identification, measurement, monitoring, and control.

Figure 1 illustrates the general composition and growth of Colonial’s loan portfolio in the
years preceding the institution’s failure. As reflected in the figure, ADC loans were a
significant segment of the bank’s loan portfolio. Although overall loan portfolio growth
appears moderate from 2004 to 2006, the ADC loan portfolio and the associated risk
increased significantly over this 3-year period.

 Figure 1: Composition and Growth of Colonial’s Loan Portfolio
                                                                                                          All Other Loans
                                                                                                          Other CRE Loans
                                                                                                          ADC Loans
                                                                                             $17.5
                                                                  $16.0       $17.0                      $16.5        $16.7
                                          $18
      Gross Loans and Leases (Billions)




                                          $16        $13.5
                                                                                         $6.1
                                          $14                                $6.3
                                                                $6.1                                    $6.7        $7.4
                                          $12
                                                   $5.4
                                          $10
                                                                             $4.3        $5.0
                                          $8                    $4.5                                    $4.8
                                                                                                                    $5.0
                                                   $4.2
                                          $6
                                          $4                                 $6.4        $6.4
                                                                $5.4                                    $5.0
                                                   $3.9                                                             $4.3
                                          $2
                                          $0
                                                Dec-2004     Dec-2005     Dec-2006    Dec-2007       Dec-2008    June-2009
                                                                             Period Ended


 Source: OIG analysis of UBPRs and Reports of Condition and Income (Call Report) for Colonial.

In addition, the bank’s concentration in Other Mortgage-Backed Securities significantly
increased, from $687 million in 2003 to $1.7 billion in 2004 (an increase of 147 percent).
As of December 2004, the securities equaled 110 percent of total capital. This category
of assets remained a major product segment into 2009.

ADC Loan Portfolio

The FDIC’s June 2008 Report of Examination (ROE), issued in May 2009, reported that
the bank’s deteriorating financial condition was a result of management’s strategic focus
on real estate lending, and that excessive concentrations in ADC lending from a period of

                                                                                         4
rapid growth (primarily consisting of higher-risk land acquisition and development loans)
were indicative of management’s risk appetite. In addition to management’s focus on
ADC lending, the bank developed concentrations in geographic areas of rapid growth.
As these high-growth markets declined, the business strategy that fueled the bank’s
growth and operations accelerated the bank’s deterioration. The FDIC also stated in the
June 2008 examination report that bank management was slow to accurately identify and
react to the deteriorating credit quality and the overall condition of the institution during
2008. Further, the FDIC noted in a May 2009 problem bank memorandum that
management’s pursuit of these higher-risk lending portfolios ignored many of the prudent
banking guidelines that recommended diversification by geography, collateral type,
industry, and/or source of repayment. The memorandum also indicated that Colonial’s
Board and senior management had not adequately identified, measured, monitored, or
controlled the various risks associated with the bank.

Joint guidance issued by the FDIC, the OCC, and the Board of Governors of the Federal
Reserve System, entitled, Concentrations in Commercial Real Estate Lending, Sound
Risk Management Practices, dated December 12, 2006, recognizes that there are
substantial risks posed by CRE and ADC concentrations. Such risks include
unanticipated earnings and capital volatility during an adverse downturn in the real estate
market. The Joint Guidance defines institutions with significant CRE concentrations as
those reporting:

        Loans for construction, land and development, and other land (i.e., ADC)
         representing 100 percent or more of total capital; or

        Total CRE loans representing 300 percent or more of total capital, where the
         outstanding balance of CRE has increased by 50 percent or more during the prior
         36 months.

According to the guidance, an institution that has experienced rapid growth in CRE
lending, has notable exposure to a specific type of CRE, or is approaching or exceeds the
previous criteria may be identified for further supervisory analysis of the level and nature
of its CRE concentration risk. As shown in Figure 2, concentrations in ADC loans
existed over an extended period of time and significantly exceeded the bank’s peer group
averages.4




4
 Commercial banks are assigned to one of 25 peer groups based on asset size and other criteria. From
2005 through 2009, Colonial’s peer group was all insured commercial banks having assets in excess of
$3 billion.


                                                    5
Figure 2: ADC Loan Concentrations (Loans as a Percentage of Total Capital)
                                 350
                                                                    311%               308%
                                 300
                                                  265%                                                                      274%*
                                                                                                         236%
    ADC Loans to Total Capital


                                 250

                                 200
                                                                                                     Colonial Bank
                                                                                                     Peer Group Average
                                 150

                                 100
                                                                                       89%               80%
                                  50                                75%                                                     73%
                                                  61%

                                   0

                                       Dec-2005          Dec-2006          Dec-2007           Dec-2008          June-2009

                                                                              Period Ended

Source: OIG analysis of the UBPRs for Colonial.
* The increase in the concentration level in 2009 is the result of increasing losses and declining capital
levels, rather than asset growth.

ASBD examiners told us that ADC loans that were originated in 2004 and 2005
ultimately resulted in significant losses and contributed to the bank’s failure. The ASBD
noted that a substantial amount of these ADC loans were originated with planned project
completion periods of 2 to 3 years. The ASBD also indicated that 2004 and 2005 marked
the height of the market for condominiums and land transactions, and by late 2006 and
2007, there was no market appreciation and limited funding for new ADC loans.

Other Mortgage-Backed Securities Portfolio

In 2004, bank management significantly increased its investment in high-yielding and
higher-risk mortgage-backed securities, also known as private label mortgage-backed
securities, from 50 percent of total capital in December 2003, to 110 percent as of
December 2004. Based on our review of the FDIC’s July 2008 targeted review and the
bank’s investment policy, it appears that all of the securities were considered investment
grade at the time of purchase and were in the second highest rating category (AA/Aa2),
as provided by nationally-recognized credit rating agencies.5 However, many of these
securities were subsequently downgraded and subject to a significant level of unrealized
loss. At its peak, in March 2007, the bank held over $1.7 billion in Other Mortgage-
Backed Securities, which represented over 8.5 percent of total earning assets and
113 percent of Tier 1 Capital.

The securities were complex investment instruments that were largely collateralized by
nontraditional mortgages. Underwriting characteristics of the underlying mortgages

5
  The AA and Aa2 ratings were provided by Standard & Poor’s and Moody’s Investor Services,
respectively.

                                                                                   6
included limited documentation loans, low Fair Isaac Corporation (FICO)6 scores, low
average coverage ratios, and adjustable interest rates. In addition, nearly all of the
securities were collateralized by loans concentrated in high-growth real estate markets
that eventually experienced significant market declines, such as California, Florida,
Arizona, and Nevada. As of December 2008, Colonial incurred an unrealized loss of
$506 million in its Other Mortgage-Backed Securities portfolio, and about 12 percent of
the securities had been downgraded and were considered below investment grade status.

Despite the collapse of the subprime and nontraditional mortgage markets in mid-2007,
bank management was slow to recognize and react to the deteriorating market conditions.
For example, in December 2007, bank management notified the OCC that the bank
noticed a “tremendous” decline in trading volumes and liquidity for these securities;
however, management officials advised the regulator that they did not intend to undertake
any change in investment strategy. Management began to address the bank’s
deteriorating securities portfolio only after the securities were downgraded by the various
credit rating agencies and after the FDIC began to adversely classify the securities
portfolio.

In the June 2008 examination report, the FDIC stated that although the bank’s policies
allowed them to invest in these types of securities, the level of exposure to these
instruments was not appropriately limited in practice. In addition, our review of the
bank’s investment policies indicated that:

       the policies lacked risk limits and operating parameters for these investments;
       the bank did not establish proactive investment strategies, based on key market
        indicators, to further mitigate risk in case of deteriorating conditions; and
       the bank did not appropriately consider the suitability determination of these
        securities as an investment strategy.

In March 2009, the bank restructured a large segment of the securities portfolio by re-
issuing a Real Estate Mortgage Investment Conduit (Re-REMIC).7 The Re-REMIC
created a new and more complex security structure by cross-collateralizing the bank’s
Other Mortgage-Backed Securities and provided an additional enhancement by adding
various U.S. Department of the Treasury Separate Trading of Registered Interest and




6
  A FICO score is a numerical indicator used to predict the credit risk of a consumer based on financial
information in the consumer’s credit report. The term FICO is derived from the mathematical model
originated by the Fair Isaac Corporation.
7
  A REMIC mortgage derivative is a type of mortgage-backed security that is secured by pass-through
mortgage-backed securities or pools of individual loans whose collateral cash flows (principal and interest
payments) are divided among multiple tranches/classes to create securities with distinctive risk/return
characteristics. A Re-REMIC is a security collateralized by previously-issued mortgage derivative tranches
rather than by the pass-through mortgage-backed securities. This structure generally adds an additional
layer of complexity to the mortgage derivatives market.

                                                     7
Principal Securities (U.S. Treasury STRIPS)8 with an approximate fair value of
$38 million and book value of $100 million to the structure. Due to Colonial’s
restructuring process, bank management was able to improve the securities’ investment
quality ratings, avoid any loss (impairment) recognition, and reduce the bank’s level of
unrealized loss by approximately $300 million from February to March 2009.

Notwithstanding the effect of the Re-REMIC, as reflected in Figure 3, the bank
recognized a significant level of unrealized loss from March 2008 (represented by the
differences between the amortized cost and the fair value) through June 2009.

Figure 3: Colonial’s Other Mortgage-Backed Securities Valuations
                                     2.00
                                                    $1.72        $1.72           $1.72        $1.71         $1.71
                                     1.80
    Amortized Cost and Fair Value




                                                                                                                         $1.59          $1.60
                                     1.60
      Determinations (Billions)




                                                    $1.70                                       $1.54
                                     1.40                        $1.53
                                                                                 $1.48
                                     1.20                                                                                $1.27
                                                                                                            $1.20                       $1.22
                                     1.00
                                     0.80
                                                        Amortized Cost
                                     0.60               Fair Value
                                     0.40
                                     0.20
                                     0.00
                                                                             8




                                                                                                                                    9
                                                7



                                                             8




                                                                                                        8



                                                                                                                     9
                                                                                         08
                                                           00




                                                                                                                   00
                                                                          00




                                                                                                                                 00
                                             00




                                                                                                     00
                                                                                      20
                                                         -2




                                                                                                                 -2
                                                                       -2




                                                                                                                              -2
                                          -2




                                                                                                  -2
                                                                                    p-
                                                      ar




                                                                                                              ar
                                                                     ne




                                                                                                                            ne
                                        ec




                                                                                                ec
                                                                                  Se
                                                     M




                                                                                                             M
                                       D




                                                                                               D
                                                                  Ju




                                                                                                                         Ju



                                                                                    Period Ended
Source: OIG analysis of the Call Reports and the Purchase and Assumption Agreement for Colonial.

Upon the bank’s failure and liquidation by the FDIC, these securities were sold for a loss
of $760 million.

In Financial Institution Letter (FIL) 20-2009, entitled, Risk Management of Investments
in Structured Credit Products, dated April 2009, the FDIC re-emphasized existing
supervisory guidance9 to banks on the purchase and holding of complex structured credit
products, such as Other Mortgage-Backed Securities. Specifically, FIL 20-2009 states:

                                    Risk management of investments in structured credit products should include
                                    adequate due diligence, reasonable exposure limits, accurate risk measurement, an
                                    understanding of the tranched structure, knowledge of the collateral performance,
                                    and a determination of investment suitability. . . Institutions should strive to limit

8
  U.S. Treasury STRIPS are zero-coupon fixed-income securities backed by the U.S. government. The
securities are sold at a significant discount to face value and offer no interest payments because they mature
at par value. The securities allow investors to hold the interest and principal components of eligible
Treasury notes and bonds as separate securities.
9
  The existing supervisory guidance was primarily contained in FIL-45-98, Supervisory Policy Statement
on Investment Securities and End-User Derivatives Activities, and FIL-70-2004, Uniform Agreement on the
Classification of Assets and Appraisal of Securities.

                                                                                                8
       concentrations in any one investment category, especially complex, illiquid, and
       high-risk investments such as structured credit products. . . Institutions must
       understand not only an investment’s structural characteristics, but also the
       composition and credit characteristics of the underlying collateral. Management
       should conduct analysis at both the deal and pool level using information that
       sufficiently captures collateral characteristics. Such analysis should be conducted
       prior to acquisition and on an ongoing basis to monitor and limit risk exposures.

Loan Underwriting, Credit Administration, and Risk Analysis and Recognition
Practices

Weaknesses in Colonial’s loan underwriting, credit administration, and risk analysis and
recognition practices were contributing factors in the asset quality problems that
developed when the bank’s real estate markets began to deteriorate in 2007. Following
the August 2006 examination, the OCC and the FDIC each identified significant
deficiencies in these areas within the bank’s ADC loan portfolio. In addition, in the June
2008 examination report, the FDIC stated that Colonial’s Board and executive
management were slow to accurately identify and react to deterioration in credit quality
and the overall condition of the institution. The weaknesses identified by the OCC and
the FDIC included:

Loan Underwriting

      Aggressive underwriting during periods of hyper real estate market growth.
      Lack of consistency and discipline within the credit function, including the failure
       to standardize underwriting and analysis practices/processes.
      Inadequate and/or insufficient financial analysis needed to properly assess the
       borrower’s repayment capability and guarantor support (i.e., lack of global cash
       flow and collateral analysis and lack of verified guarantor liquidity).
      Weak appraisal reviews, including the failure to ensure adjustments for rapidly
       changing market conditions. (Of particular note, examiners recommended that
       the bank’s appraisal review, lending, and special assets staff should adopt a more
       skeptical view when reviewing market-based appraisals and validating appraisal
       assumptions.)
      Inconsistent and/or insufficient use of absorption sensitivity analysis, including
       the impact of changes to interest rates, rental/vacancy rates, and expenses in
       assessing credit risk (stress testing).
      Inappropriate use and subsequent modification of interest reserves and other soft
       cost allowances for delayed, closed, and cancelled projects, resulting in increased
       loan balances where little or no development of the property took place and
       collateral values declined.
      Failure to obtain support or approval for loan policy exceptions.




                                             9
Credit Administration

      A high-risk credit culture in need of strategic change and revised strategic
       objectives to mitigate the effects of systemic market risks.
      Insufficient staff resources - in need of training and/or replacement to enhance
       employee skill sets and experience levels necessary to implement change.
      Inadequate policies and procedures to monitor and control risks from
       concentrations of credit.
      Insufficient credit monitoring, including the failure to generate current or
       adequate annual reviews, and to update loan project status, collateral values, and
       risk ratings when merited.
      Insufficient market analysis, including the review of market, submarket, or project
       status updates.
      Weak enforcement of loan covenants and lending terms.
      Stale borrower and guarantor financial information.

Risk Analysis and Recognition Practices

      Inaccurate credit risk ratings and failure to identify problem credits in a timely
       manner.
      Failure to perform portfolio-level stress testing or sensitivity analysis.
      Inadequate ALLL methodology and/or position.
       - Weaknesses noted in determining general reserves based on historical data –
           Statement of Financial Accounting Standards (SFAS) 5.
       - Weaknesses noted in determining specific reserves for impaired loans
           concerning justification for discount rates, appraisal review, and file
           documentation – SFAS 114.
       - Failure to allocate reserves for impairment on guarantor-dependent loans,
           including loans with declining collateral values, limited guarantor capacity,
           insufficient cash flow, and poor to nonexistent sales.
      Failure to place loans on nonaccrual.
      Within the bank’s Special Assets Department, the lack of formal policies,
       procedures, and reporting requirements and the need for personnel with the
       necessary skills and access to resources to effectively perform duties.

Mortgage Warehouse Lending Operation

Colonial suffered substantial losses in its MWL operation, which provided short-term
secured funding to various mortgage companies and represented a significant volume of
the bank’s business activities. As of June 2009, Colonial’s MWL assets totaled
$5.2 billion, which represented 20 percent of the bank’s total assets and consisted of the:




                                             10
                          Mortgage Loans Held for Sale account – known as the COLB account.10
                          Securities Purchased Under Agreements to Resell account – known as the
                           Assignment of Trade (AOT) account.11
                          Mortgage warehouse lines of credit, which were used by mortgage companies to
                           finance mortgage production and were secured by first residential mortgages.

As of June 2009, COLB loans totaled $3 billion, AOT loans totaled $1.5 billion, and
mortgage warehouse lines totaled $725 million. Figure 4 presents the growth of
Colonial’s MWL operation and the individual loan segments from December 2005 to
June 2009.

Figure 4: Colonial’s MWL Composition and Growth

                                   $6.0            Warehouse Lines of Credit
                                                   COLB Account                                     $5.2

                                   $5.0            AOT Account                            $4.3     $0.7
         MWL Loans (in billions)




                                   $4.0                                   $3.3          $0.7

                                                                        $0.3
                                   $3.0                     $2.3                                   $3.0
                                              $2.1                                      $2.0
                                                          $0.3          $1.5
                                   $2.0     $0.5
                                                          $1.4
                                            $1.1
                                   $1.0                                 $1.5            $1.6       $1.5
                                            $0.6          $0.6
                                   $0.0
                                          Dec-05        Dec-06        Dec-07          Dec-08     June-09
                                                                   Period Ended



Source: OIG analysis of Colonial BancGroup Annual Reports and Asset Purchase Committee Reports.

In August 2009, regulatory authorities suspended TBW’s operations. The suspension
was prompted by allegations of fraud associated with these operations and the potential
financial impact, as discussed further in the next section of this report. As of August 10,
2009, the FDIC estimated that the bank incurred an approximate loss of $1.7 billion due
to activities related to the MWL operation – $900 million within the COLB account and
$800 million within the AOT account.




10
   The COLB account was described by the FDIC as a secondary source of short-term secured funding that
was provided to a variety of mortgage companies. These loans represented mortgages and construction
loans purchased from the bank’s MWL customers, including Taylor, Bean & Whitaker Mortgage
Corporation (TBW) of Ocala, Florida. As of June 2009, Colonial’s relationship with TBW represented
$3.3 billion, or 63 percent, of its total MWL assets.
11
   The AOT account was described by the FDIC as interim funding for mortgage loans purchased from
TBW (that Colonial certified as underwritten to agency and secondary market standards) and in the process
of securitization under agreements to resell. Although owned by the bank, TBW serviced the loans.

                                                                                 11
Available Liquidity

Due to Colonial’s deteriorating financial condition and increasing losses associated with
the ADC loan portfolio, the bank’s available liquidity became strained and secondary
sources of liquidity were also significantly curtailed or restricted. Specifically, according
to the FDIC’s June 2008 examination report, the bank experienced a rapid decline in
contingency funding sources, the securities portfolio was largely unavailable to meet
short-term funding needs, the Federal Home Loan Bank (FHLB) line was fully drawn,
and all unsecured federal funds lines were terminated.

The FDIC was also concerned that Colonial’s liquidity could be further impacted by an
investigation of fraud allegations involving MWL activities. Specifically, according to
an August 4, 2009 problem bank memorandum,

        In addition to the poor financial condition reported for the second quarter of 2009,
        on August 3, 2009, the Special Inspector General for the Troubled Asset Relief
        Program (SIGTARP) served sealed [search] warrants to the bank at its Orlando,
        FL mortgage warehouse lending operation and at the Ocala, FL headquarters of
        Taylor, Bean, & Whitaker, the largest mortgage warehouse customer. Press
        reports of the raids have been picked up by national news outlets. The potential
        for an adverse liquidity event is amplified by the bank’s poor liquidity cushion.
        Additionally, if the SIGTARP investigation discloses any significant level of
        fraud, potential losses and the resulting erosion to capital will further endanger the
        bank’s viability.

The memorandum further stated that given the liquidity concerns, declining asset quality,
and the significant amount of information not yet known regarding the SIGTARP
investigation, the institution posed a significant risk to the DIF and would need to be
closed one quarter earlier than contemplated.12

As of August 5, 2009, Colonial held approximately $189 million in cash and $1.7 billion
in interest-bearing deposits and federal funds sold. However, the bank also held
approximately $875 million in escrow deposits related to mortgage-backed securities
serviced by TBW. Due to TBW’s closure, control of the escrow deposits was
transferred/re-titled to the Government National Mortgage Association, and deposits at
the bank were at risk of withdrawal. The FDIC was concerned at the time that the loss of
the $875 million in escrow deposits would have a devastating impact on the bank’s
liquidity.




12
  Although not indicated as such in the problem bank memorandum, SIGTARP agents were accompanied
by agents from the Federal Bureau of Investigation, Department of Housing and Urban Development OIG,
and FDIC OIG, when executing the warrants.

                                                 12
Regulatory Supervision of Colonial
When the bank became a state-chartered institution in June 2008, the FDIC promptly
devoted substantial resources to overseeing Colonial, primarily through a continuous on-
site examination13 of the bank. The FDIC served as the bank’s PFR for approximately
14 months – from June 2008 to August 2009. During this period, the FDIC identified and
addressed key risks in Colonial’s management practices and operations – including some
that the OCC had already reported on and was in the process of addressing through rating
downgrades and a Cease and Desist Order (C&D) – and brought these risks to the
attention of the bank’s Board and management through regular discussions and
correspondence, timely targeted reviews and memoranda, and an examination report.
These risks included weak risk management practices pertaining to the bank’s ADC loan
concentrations, loan underwriting, credit administration, and risk analysis and
recognition.

To address the weaknesses identified at the institution, the FDIC utilized various tools to
obtain corrective actions, including recommendations, interim rating downgrades, and
informal and formal actions. Within 3 months of becoming Colonial’s PFR, the FDIC
downgraded the bank’s composite rating and, 3 months later, executed a Memorandum of
Understanding (MOU) with Colonial. Six months after executing the MOU, the FDIC
further downgraded the bank and issued a C&D. Although bank management made some
improvements to the bank’s operations, its actions were insufficient to prevent Colonial’s
failure.

While Colonial was supervised by the OCC, the FDIC functioned as the bank’s backup
federal regulator and performed various monitoring activities as a result of Colonial’s
“large institution” status. A brief overview of those activities is also provided in this
report.

Supervisory History

During the period of our review, Colonial was considered a well-performing institution
and consistently received composite “2” supervisory ratings under the OCC’s
supervision. From August 2004 to June 2008, the OCC performed four continuous risk
management examinations and numerous targeted reviews of Colonial, and assigned one
interim rating change. Given the bank’s pursuit of, and approval for, a charter change in
June 2008, the OCC’s August 2007 examination was not formally documented in an
examination report, although interim supervisory letters had been issued conveying
examination findings and significant concerns, particularly relating to the MWL
operation. At that time, the OCC had also drafted, but did not impose, a C&D on the
bank, since it was no longer the PFR.

13
  Continuous on-site examinations are performed, as needed, for certain larger state nonmember
institutions under the FDIC’s Large State Nonmember Bank Onsite Supervision Program. This program
includes visitations and targeted reviews throughout the year as opposed to the traditional, annual point-in-
time examination. Findings resulting from ongoing targeted reviews are updated as needed and
incorporated into an annual ROE.

                                                     13
Consistent with the FDI Act,14 the ASBD approved Colonial’s final charter change
application in 2008 and the FDIC replaced OCC as the new PFR. Of note is the fact that
the FDI Act did not call for the FDIC to participate in the review or approval of the
application. However, the FDIC and the ASBD promptly met with the OCC, identified
the key risks facing the bank, and initiated a continuous supervisory review program.
FDIC regional officials stated that the meeting was held to ensure that issues identified by
the OCC received proper follow-up. According to OCC officials, issues discussed at the
meeting included the bank’s MWL operation, deterioration in asset quality, liquidity, and
bank management. The FDIC regional officials recalled that the OCC had particular
concerns with accounting issues and credit concentrations associated with the bank’s
MWL operation. Based on these concerns, the FDIC scheduled a targeted review of the
MWL operation in July 2008. During the year that followed, the FDIC and the ASBD
also initiated various rating downgrades and enforcement actions against the bank.

To address the impact of such charter change requests, the Federal Financial Institutions
Examination Council (FFIEC) issued a policy statement in July 2009, entitled, FFIEC
Statement on Regulatory Conversions, that gives the FDIC a role in reviewing and
approving all charter change applications, and should assist regulators in addressing
situations where an institution is seeking to change charters to avoid an enforcement
action or a supervisory CAMELS composite rating downgrade.

As discussed previously, the OCC was pursuing ratings downgrades and a C&D at the
time of the charter change. As a result, there was clearly a possibility that regulatory
action to address risks at Colonial could be delayed, and in OCC’s view, that was the
case. However, based on the coordination between the regulators involved, and the
aggressive approach taken by FDIC and ASBD examiners to address prior OCC concerns
and their own, it does not appear that in broad terms Colonial’s final charter change
significantly delayed effective supervisory action. Absent those efforts, however, the
opportunity existed for Colonial to avoid supervisory action as contemplated by the July
2009 policy statement discussed above.

Table 3 summarizes Colonial’s examination history from 2004 to 2009, including the
supervisory actions taken.




14
     Section 18(i)(2) of the FDI Act, 12 U.S.C. 1828(i).

                                                       14
Table 3: Colonial’s Examination History, 2004 to 2009
Event Date                          Supervisory Ratings
                     Agency                                          Supervisory Action
 or Period                               (UFIRS)*
                                                                Temporary C&D and Interim
                                           555555/5
 Aug. 2009        FDIC/ASBD                                     Rating Change. (The bank
                                                                was closed on 8/14/2009.)
 June 2008 –
                  FDIC/ASBD                444443/4             C&D issued June 2009.
  June 2009
                                                                Interim Rating Change. (An
                                           343433/3
 Sept. 2008       FDIC/ASBD                                     MOU was signed in December
                                                                2008.)
                                                                Proposed Rating Change and
Aug. 2007 –
                                           243332/3             C&D. (The examination
 June 2008            OCC
                                                                report was not drafted before
                                                                the bank changed its charter.)
 Feb. 2008            OCC                  232222/2             Interim Rating Change.
Aug. 2006 –
                      OCC                  222222/2                           N/A
 Aug. 2007
Aug. 2005 –
                      OCC                  212222/2                           N/A
 Aug. 2006
Aug. 2004 –
                      OCC                  222222/2                           N/A
 Aug. 2005
Source: ROEs, Large Insured Depository Institution report, problem bank memoranda, and informal and
formal enforcement actions for Colonial.
* Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym: Capital
adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and Sensitivity to
market risk. Each component, and an overall composite score, is assigned a rating of 1 through 5, with 1
having the least regulatory concern and 5 having the greatest concern.

A brief description of the OCC’s proposed C&D and the FDIC’s/ASBD’s enforcement
actions follows.

       Proposed C&D. The OCC’s draft C&D contained seven articles/provisions that
        addressed such areas as violations and improving the accounting, policies and
        procedures, reporting and management information systems, ALLL, and credit
        risk management of the MWL operation. Among other things, the order required
        the bank to define the responsibilities of management (within the bank’s MWL
        operation) to ensure the integrity of data/process flow.

       December 2008 MOU. The FDIC and the ASBD entered into an MOU with
        Colonial based on the results of ongoing targeted reviews and Call Report
        financial data. The MOU contained 20 provisions, addressing such areas as
        appropriate management, personnel performance standards and reviews, asset
        quality, growth and concentration objectives, the ALLL, written loan policies,
        loan documentation systems, capital, dividend payments, liquidity, violations, and
        Board minutes. Of particular note, the MOU specifically required Colonial to
        designate a chief lending officer with the requisite authority to implement sound
        lending practices and assume overall responsibility for the lending area. In
        addition, the MOU required that the bank maintain a Tier 1 Leverage Capital ratio

                                                    15
       of not less than 8 percent and a Total Risk-Based Capital ratio of not less than
       12 percent.

      June 2009 C&D. Colonial’s Board stipulated to a C&D based on the results of
       the June 2008 joint examination. The C&D replaced the bank’s December 2008
       MOU and contained 14 provisions, addressing such areas as management
       responsibilities and evaluations, Board participation, capital, credit
       concentrations, the ALLL, asset quality, credit underwriting, liquidity, dividend
       payments, brokered deposits, and shareholder disclosure. Among other things,
       the C&D specifically required Colonial to retain qualified management,
       including, but not limited to, a chief executive officer, a senior lending officer,
       and a chief financial officer. In addition, the C&D required that management
       develop a plan to reduce its credit concentrations.

      August 2009 Temporary C&D. The FDIC and the ASBD placed a temporary
       C&D on Colonial based on alleged unsafe and unsound banking practices. The
       C&D required, among other things, that the bank halt all transactions with TBW
       and the bank’s holding company and maintain and provide the FDIC unrestricted
       access to all records.

Supervisory Response to Key Risks

Overall, the FDIC appropriately followed up on key risks in areas identified by the OCC,
as well as other risks subsequently identified by FDIC and ASBD examiners; scheduled
timely reviews of these areas; and pursued appropriate corrective actions. These areas
included Colonial’s risk management practices pertaining to ADC loan concentrations,
loan underwriting and credit administration, and the MWL operation.

The sections that follow describe the OCC’s findings and assess the FDIC’s supervision
in the areas identified as the primary causes of Colonial’s failure. Additionally, although
not directly related to the objectives of our MLR, this report briefly discusses the FDIC’s
backup regulatory activities for Colonial from 2004 to 2008.

ADC Loan Concentrations

In its August 2003 through August 2005 examination reports, the OCC routinely
identified the bank’s ADC concentration levels as a potential concern but indicated that
the concerns were mitigated by the bank’s diverse loan types, sizes, and locations of
collateral. By August 2007, the OCC expressed a heightened level of concern over the
bank’s concentration levels and encouraged bank management to further strengthen risk
monitoring and reporting systems. The OCC also downgraded the bank’s Asset Quality
component rating to a “3” in February 2008 through an Interim Rating Change.

As the bank’s PFR as of June 2008, the FDIC also expressed repeated concern with the
bank’s ADC concentrations and recommended that bank management diversify its loan
portfolio and establish and strictly enforce concentration limits. Based on the FDIC’s
findings and a December 2008 MOU, Colonial’s Board revised its concentration limits to
                                             16
levels below the parameters established within the Joint Guidance as warranting further
supervisory analysis. Although the Board revised its concentration limits, bank
management was not able to meet these new operating parameters. Further, as discussed
elsewhere in this report, the FDIC noted in a May 2009 problem bank memorandum that
management’s pursuit of a higher-risk lending portfolio ignored many of the prudent
banking guidelines that recommended diversification by geography, collateral type,
industry, and/or source of repayment.

A lesson learned in the case of Colonial, and other bank failures that have been subject to
MLRs, is that earlier and more formal supervisory action to mitigate the risk associated
with ADC concentrations is prudent. Ultimately, had earlier action been taken to reduce
the bank’s ADC loan concentration, losses to the bank and the DIF may have been
mitigated.

Other Mortgage-Backed Securities Portfolio

In its August 2003 through August 2006 examination reports, the OCC did not report
concerns with the bank’s investment practices. Further, in its January 2007 Supervisory
Letter,15 the OCC reported that the bank’s investment portfolio quality was strong with
high-quality-rated corporate Collateralized Mortgage Obligations (Other Mortgage-
Backed Securities) dominating the portfolio. The OCC also reported that strong,
although informal, pre-purchase analysis was performed and performance was routinely
monitored. To put this in perspective, from December 2003 to December 2004,
Colonial’s investment in these securities had grown from $687 million to $1.7 billion, an
increase of 147 percent. Colonial’s investment in these securities remained at over
$1.5 billion until the institution was closed.

In the June 2008 examination report, the FDIC reported that Colonial had not
appropriately limited its level of exposure to the Other Mortgage-Backed Securities. The
FDIC also reported on the significant devaluation of the securities and the bank’s re-
securitization of the Other Mortgage-Backed Securities portfolio (discussed earlier in this
report). With respect to the re-securitization, the FDIC reported that Colonial’s intent
was to improve the risk ratings of the securities in order to preclude their adverse
classification and, therefore, to improve regulatory capital. Before the re-securitization,
the FDIC stated that the bank’s Other Mortgage-Backed Securities were still protected by
junior support tranches (not in default). After the re-securitization, the portfolio was
deemed to be investment grade by an investment rating agency. According to the FDIC,
before the bank restructured its Other Mortgage-Backed Securities, the bank’s external
auditors discussed the proposed accounting treatment with FDIC officials, including the
Chief Accountant. Although the FDIC did not specifically approve Colonial’s re-
securitization plans, it did not object to the bank’s planned accounting treatment for the
re-securitization and determined that the securities should be excluded from adverse
classification.



15
     A Supervisory Letter is the term the OCC uses for its targeted review report.

                                                       17
The role that Colonial’s investments in Other Mortgage-Backed Securities played in the
bank’s failure offers an important lesson learned regarding the risks associated with
complex structured credit products. That is, when institutions make significant
investments in such products without appropriate risk management controls, such
practices may require a prompt and aggressive supervisory response. In that regard, as
noted previously, in April 2009, the FDIC issued guidance to banks on the purchase and
holding of complex structured credit products. This guidance can also be used by
examiners to evaluate controls in these areas.

Loan Underwriting, Credit Administration, and Risk Analysis and Recognition

In its August 2003 through August 2005 examination reports, the OCC did not report any
significant weaknesses in the bank’s loan underwriting, credit administration, and risk
analysis and recognition practices. However, during the August 2006 examination, the
OCC recognized the economic slowdown and its impact on the bank’s financial
condition. In addition, the OCC highlighted the bank’s credit administration and risk
analysis and recognition practices as potential areas of concern and encouraged bank
management to continue efforts to strengthen the bank’s processes. The OCC also
identified the need for bank management to improve global cash flow analysis, stress
testing, and market analysis. Following the August 2006 examination, the OCC
continued to identify significant loan underwriting, credit administration, and risk
analysis and recognition weaknesses within the bank’s ADC loan portfolio. In February
2008, in response to continuing asset quality deterioration, the OCC downgraded this
component rating to a “3,” and proposed a further downgrade to a “4” just before the
bank’s charter conversion.

Once it became the bank’s PFR in June 2008, the FDIC assigned various component
rating downgrades, and took both informal and formal actions because of significant risk
management weaknesses identified within the bank’s ADC loan portfolio. In particular,
the FDIC sought the designation of a qualified chief lending officer and the hiring or
improvement of personnel with appropriately assigned responsibilities, and requisite
knowledge, skills, and abilities.

Mortgage Warehouse Lending Operation

From 2005 to 2007, the OCC performed three targeted reviews of the bank’s MWL
operation, and identified and discussed in its August 2007 examination report the bank’s
deteriorating market conditions, increasing risk profile, and concerns regarding
accounting treatment and loss recognition in COLB loans. During a follow-up review in
March 2008, the OCC determined that the bank had not corrected the issues within the
MWL operation, and the examiners identified additional significant weaknesses in the
MWL operation. The OCC determined that these weaknesses constituted unsafe and
unsound banking practices and began to pursue a C&D. Specifically, the Mortgage
Warehouse Lines of Credit and the COLB account had a significant volume of mortgages
that were aged over 120 days (stale). The OCC noted that these loans would significantly
impact the bank’s level of nonperforming credits and that their valuation was
questionable. In addition, the OCC found that the bank’s internal loan grading system
                                           18
was weak, loans were not accurately risk rated, and the ALLL methodology was
unsupported and grossly underfunded. The OCC also found that, because of these
weaknesses, the bank had materially misstated its March 2008 Call Report.

As a result of its findings, the OCC made significant recommendations to improve the
bank’s policies and procedures, assignment of management responsibility and
accountability, and management information systems. The OCC also sought to have the
bank obtain an independent valuation and verification of assets and end-investor
commitments, and to ensure the appropriate assignment of risk ratings, non-accrual
status, and write-downs. According to the OCC, in response to the examiners’ findings,
bank management became argumentative and recalcitrant and, unbeknownst to the OCC,
bank management also sought out a charter change.

In July 2008, soon after Colonial’s charter change, the FDIC performed a targeted review
of the MWL operation to follow up on the OCC’s concerns. According to FDIC regional
officials, at the request of the FDIC and the ASBD, bank management provided a written
response to the OCC’s findings as presented in the Supervisory Letter, and the letter and
the bank’s response were considered during the FDIC’s review. Table 4 summarizes the
OCC’s concerns expressed in its March 2008 Supervisory Letter, and the FDIC’s scope
of review based on the July 2008 Targeted Memorandum and our discussions with FDIC
examiners.




                                           19
Table 4: The OCC’s Identified Concerns and the FDIC’s Follow-up Response
      The OCC’s Identified Concerns                             The FDIC’s Action
Significant volume of aged loans.                 Reviewed aging schedules for the Mortgage
                                                  Warehouse Lines and COLB account. Did
                                                  not review a loan aging schedule for the AOT
                                                  account.
Insufficient internal and external audit          Reviewed a schedule of commitments.
coverage of commitments and verification of
certain data.
Inaccurate credit risk rating and loss            Sampled Mortgage Warehouse Lines and
recognition in the Mortgage Warehouse Lines.      made recommendations regarding risk
                                                  identification and the allowance allocation for
                                                  the MWL portfolio.
Weak accounting practices and controls, and       Reviewed accounting practices and the results
inaccurate accounting and valuation practices     of third-party professional opinions
over hedging activities and fair value            concerning financial reporting.
measurements. Call reports were materially
misstated.
Insufficient ALLL and inadequate                  Reviewed the ALLL balance and
methodology.                                      methodology and made recommendations for
                                                  enhancement.
Lack of formal policies for troubled              Reviewed policies and procedures and
borrowers/problem loans and accounting            documented that management had addressed
practices.                                        the recommendations made by the OCC.
Weak management information systems and           Reviewed selected aging and management
key reports contained inaccurate or missing       information reports and documented that
data.                                             management had incorporated the
                                                  recommendations made by the OCC.
Source: Supervisory Letters, Targeted Review Memoranda, and ROEs for Colonial.

The FDIC’s scope of review for the MWL operation included reviewing a sample of
Mortgage Warehouse Lines of Credit and obtaining and reviewing the bank’s loan aging
schedules for the credit lines, as well as an aging schedule for the COLB account. The
credit sample of the Mortgage Warehouse Lines of Credit included 21 relationships with
$427 million in commitments and $278 million in outstanding credits, or about
49 percent of this specific portfolio segment, as of June 30, 2008. Based on the July 2008
MWL review, the FDIC concluded that Colonial’s risk management practices were
acceptable and improvements were largely being made. Among the improvements noted,
Colonial presented loan aging schedules that showed a significant decrease in the amount
of aged loans reported from December 2007 to June 2008. Within the July 2008
Targeted Memorandum, the FDIC reported that the bank was able to reduce the volume
of aged/stale warehoused loans by improving policies, adjusting market pricing
calculations, discontinuing hedge accounting, and improving covenant enforcement and
servicing discipline.

Available Liquidity

The bank’s lack of available liquidity was largely a consequence of Colonial’s
deteriorating financial condition related mainly to declining asset quality and the impact

                                                 20
of activities related to its MWL operation. In the December 2008 MOU, the FDIC
recommended that Colonial review and implement liquidity objectives, plans, and
procedures aimed, in part, at improving balance sheet liquidity. In the June 2009 C&D,
the FDIC required that the bank improve its liquidity position, develop contingency
liquidity plans, and develop appropriate liquidity and funds management policies and
plans. In addition, according to the FDIC, as Colonial’s financial condition deteriorated,
the FDIC and the ASBD monitored the bank’s available liquidity on a daily basis.
However, the FDIC and the ASBD determined that the bank would have to be closed
sooner than projected based, in part, on the “devastating” impact that the loss of TBW’s
escrow deposits would have on the bank’s available liquidity. In short, it does not appear
that the FDIC could have done anything further to mitigate the risks associated with
Colonial’s liquidity position.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325 of the FDIC’s Rules and Regulations
implements the requirements of PCA by establishing a framework of restrictions and
mandatory supervisory actions that are triggered by an institution’s capital levels. Based
on the supervisory actions taken with respect to Colonial, the FDIC properly
implemented applicable PCA provisions of section 38.

At the time of the June 2008 examination, which was completed in April 2009, Colonial
was considered Well Capitalized for PCA purposes. However, examiners concluded
during the examination that the overall financial condition of the institution was
unsatisfactory and that the probability of the bank’s failure was a distinct possibility if the
problems and weaknesses were not satisfactorily addressed and resolved. On
December 15, 2008, the FDIC and the ASBD entered into an MOU with Colonial, which,
among other things, contained a capital provision for Colonial to increase and maintain a
Tier 1 Leverage Capital ratio of 8 percent and a Total Risk-Based Capital ratio of
12 percent – amounts that are greater than required by PCA for Well Capitalized
institutions. On June 15, 2009, the FDIC and the ASBD issued a joint C&D, which
contained the same capital requirements as in the MOU and also required the bank to
submit a written capital plan. As a result of stipulating to the C&D, the institution
became subject to certain restrictions defined in PCA, including the prohibition on the
acceptance, renewal, or roll-over of brokered deposits without a waiver from the FDIC.

As of March 2009, 12.5 percent of Colonial’s deposit base had consisted of brokered
deposits, 90 percent of which were to mature within the year. Due to PCA restrictions,
Colonial submitted a brokered deposit waiver application to the FDIC and on June 16,
2009, the FDIC’s Atlanta Regional Office approved a limited brokered deposit waiver for
the renewal of certain brokered certificates of deposit maturing through September 30,
2009. The FDIC approved the waiver to provide the bank the liquidity needed to
facilitate daily operations until an orderly resolution could be implemented. Table 5
illustrates Colonial’s capital levels relative to the PCA thresholds for Well Capitalized
institutions, as of the June 2008 examination and as of June 2009.


                                              21
Table 5: Colonial’s Capital Levels Relative to PCA Thresholds for Well
         Capitalized Institutions
                                                             June 2008
                                 Well Capitalized           Examination
       Capital Ratio                                                                As of June 2009
                                   Threshold              (As of December
                                                                2008)
 Tier 1 Leverage Capital             5% or more                  6.03%                    4.18%
 Tier 1 Risk-Based Capital           6% or more                  8.54%                    6.46%
 Total Risk Based Capital           10% or more                 11.37%                    9.21%
Source: OIG Analysis of UBPRs, and the June 2008 ROE for Colonial, as well as Section 38 of the FDI Act
and 57 Federal Register 44866-01.

Colonial submitted an application for the Troubled Asset Relief Program (TARP) in
October 2008, which was approved in December 2008 for approximately $550 million,
contingent on the bank raising an additional $300 million in private capital. The bank
was unable meet the TARP condition of raising additional capital. On August 14, 2009,
the ASBD closed the institution and named the FDIC as receiver, due to the bank’s lack
of available liquidity resulting, in part, from eroding/deteriorating capital and
unrecognized losses related to its MWL operation.


The FDIC’s Monitoring of Colonial as Backup Regulator
In its role as insurer and backup regulator, the FDIC is responsible for regularly
monitoring and assessing potential risk to the DIF at all insured institutions, including
those for which it is not the PFR. Section 10(b)(3) of the FDI Act provides the FDIC
special examination authority (also known as backup authority) to make any special
examination of any insured depository whenever the FDIC Board of Directors determines
a special examination of any such depository institution is necessary to determine the
condition of the institution for insurance purposes. In January 2002, the FDIC’s Board of
Directors approved an interagency agreement that established a set of principles related to
use of special examination authority for those institutions that present “heightened risk”
to the DIF and delegated its authority to the Division of Supervision and Consumer
Protection (DSC). The term “heightened risk” is defined under statute as an institution
having a composite rating of “3,” “4,” or “5” or that is Undercapitalized as defined under
PCA rules. Further, the FDIC may request permission from the primary federal regulator
to participate in an examination for an institution that does not meet the heightened risk
definition but exhibits material deteriorating conditions or other adverse developments
that may result in the institution being troubled in the near-term.

The FDIC monitors non-FDIC supervised institutions, such as Colonial, through its Case
Manager Program and a number of monitoring systems. Due to Colonial’s size, the bank
was also monitored through the FDIC’s Large Insured Depository Institution (LIDI)
program. Case managers, along with senior regional management, are generally
responsible for ensuring that the level of regulatory oversight accorded to an institution is
commensurate with the level of risk it poses to the DIF. Case managers regularly
monitor potential risks by reviewing examination reports prepared by the PFR, analyzing
data from quarterly institution Call Reports, and analyzing other financial and economic
                                                   22
data from government and private sources to monitor the financial condition of an
institution.

In the case of Colonial, from 2004 to 2008, the FDIC performed its backup monitoring
activities in accordance with policies, procedures, and practices in effect at the time.
Case managers reviewed OCC examination reports and other financial data and produced
LIDI reports that indicated their assessment of risk at Colonial was consistent with that of
the OCC. Further, at the end of 2007, the FDIC’s case manager noted that a high
concentration in ADC and CRE loans, primarily in Florida, were keys risks and
regulatory concerns—as the OCC had also concluded at that time.

On April 9, 2010, the OIGs of the FDIC and the U.S. Department of the Treasury jointly
issued a report, entitled, Evaluation of Federal Regulatory Oversight of Washington
Mutual Bank (Report No. EVAL-10-002). The report provides a comprehensive look at a
failed institution from both the primary and backup regulatory perspective and has
resulted in significant insights regarding the effectiveness of each and interplay between
the two. The report highlighted two major concerns related to deposit insurance
regulations and the interagency agreement governing backup authority and included two
recommendations to address these concerns. The FDIC concurred with both
recommendations and is working to implement them by the end of the year.


Regulator Comments
We issued a draft of this report to FDIC management on April 9, 2010. We also provided
the draft to the ASBD and the OCC for their review. The FDIC’s DSC Director and the
ASBD provided formal written comments on April 23, 2010. The OCC provided
informal feedback on the draft report. The views of the FDIC, ASBD, and OCC have
been incorporated in our report, as appropriate. The DSC response is provided in its
entirety as Appendix 4.

In its response, DSC reiterated the OIG’s conclusions regarding the causes of Colonial’s
failure. With regard to our assessment of the FDIC’s supervision of Colonial, DSC’s
response stated that after converting to a state-chartered institution in June 2008, Colonial
was placed under DSC’s continuous examination program, and ratings were adjusted and
corrective actions taken as warranted by Colonial’s practices and condition. DSC also
stated that “FDIC has the authority to conduct special or ‘back-up’ examinations of
insured institutions for which FDIC is not the primary federal regulator. However, under
the terms of an Interagency Agreement with the other PFRs, that examination authority is
limited for insured institutions that have a composite rating of “1” or “2.” In recognition
that greater information sharing is needed to adequately assess risks to the Deposit
Insurance Fund, the FDIC has proposed to the other PFRs modifications to strengthen
that Interagency Agreement. We are hopeful that a consensus can be reached on those
changes in the near future.”




                                             23
In its comments, the ASBD discussed its perspective on bank management based on the
department’s long, regulatory involvement with Colonial. In brief, the ASBD stated that
attempts by regulators over the years to discourage or limit Colonial’s CRE and ADC
exposures were viewed as attempts to micromanage the bank and change its basic
business model. Management’s philosophy also called for aggressive growth into Florida
and other high-growth real estate markets while operating the bank with significant
leverage. Consequently, the bank generally operated with lower capital ratios than other
banks regulated by the ASBD.

With regard to the specific cause of Colonial’s failure, the ASBD indicated that the report
accurately stated the ASBD’s reasons for closing the bank on August 14, 2009. The
ASBD pointed out that although the MWL operations caused significant losses, the CRE
and ADC exposures would have brought down the bank by themselves.

With respect to supervision, the ASBD stated that when Colonial pursued charter changes
in 2003 and 2008, the Boards of Directors and management were not receptive to the
findings and recommendations conveyed to them by examiners prior to the respective
conversions. Additionally, the relationship between examiners and senior management
had become increasingly strained and communication had deteriorated. The ASBD noted
that banks should not be allowed to ignore examiner concerns and recommendations no
matter how determined bank management is to do so. In that regard, the ASBD strongly
agreed with most of the improvements in the policy statement on regulatory conversions
discussed in the body of our report. The ASBD also indicated that it would not do
another conversion without a full-scope examination and that it is very important, in its
view, that the existing regulator be allowed to follow up on any outstanding issues post-
conversion.

The ASBD stated that, in the case of Colonial, the transition meeting with the FDIC and
the OCC after the conversion was effected was a very positive step. In its view, prompt
and appropriate regulatory actions were taken by the FDIC during the period of its
supervision. Further, the ASBD believes that there were no significant delays in
downgrading CAMELS ratings and putting enforcement actions in place to address the
bank's problems.

Finally, the ASBD provided its views on PCA and the FDIC’s backup authority, noting
that:

      The PCA capital guidelines do not properly account for current experience in this
       banking crisis, the guidelines should be increased, and the term “well capitalized”
       should be eliminated; and

      The FDIC should be able to exercise backup authority any time it sees excessive
       risks at insured institutions.




                                            24
                                                                               Appendix 1

                    Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from December 2009 to April 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of Colonial’s operations from 2003 until its
failure in 2009. Our review also entailed an evaluation of the regulatory supervision of
the institution over the same period, including an assessment of the FDIC’s supervision
as backup regulator. With respect to the OCC’s supervision of Colonial, we described,
but did not assess, the OCC’s activities for the period August 8, 2005 until Colonial
changed its charter from a national to state-chartered nonmember bank on June 10, 2008.

To achieve the objectives, we performed the following procedures and techniques:

      Analyzed OCC examination reports from 2003 to 2007 and supervisory letters
       from 2005 to 2008.

      Analyzed a joint FDIC/ASBD examination report and targeted review
       memoranda prepared by the FDIC and the ASBD from 2008 to 2009.

      Analyzed available work papers prepared by the FDIC from 2008 to 2009.

      Reviewed the following:

       - Bank data contained in UBPRs and Call Reports.
       - Correspondence maintained at DSC’s Atlanta Regional and Montgomery
         Field Offices.

                                             25
                                                                               Appendix 1

                   Objectives, Scope, and Methodology

       - DSC’s Virtual Supervisory Information on the Net (ViSION) Modules,
         including Supervisory Tracking & Reporting.
       - Reports from the bank’s internal auditors, Crowe Horwath LLP, prepared
         from 2007 through 2009 and external auditors, PricewaterhouseCoopers LLP,
         for the years ended 2005 through 2008.
       - Pertinent DSC policies and procedures.

      Interviewed and/or contacted the following FDIC officials:

       - DSC management in Washington, D.C. and the Atlanta Regional Office.
       - DSC examiners in the Montgomery Field Office.
       - Division of Resolutions and Receiverships officials in Washington, D.C.

      Interviewed officials from the OCC and the ASBD to discuss the historical
       perspective of the institution, its examinations, and other activities regarding the
       OCC’s and the ASBD’s supervision of the bank.

To assess the FDIC’s supervision as backup regulator, we performed the following
procedures:

      Interviewed the FDIC case manager responsible for reviewing the OCC’s
       examination reports and financial information for Colonial and preparing the
       Colonial LIDI reports.

      Reviewed the FDIC’s LIDI reports for Colonial and compared those reports to the
       OCC’s examination reports.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, ROEs,
and interviews of examiners to understand Colonial’s management controls pertaining to
causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that were used to support
our audit conclusions.



                                             26
                                                                            Appendix 1

                   Objectives, Scope, and Methodology

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                            27
                                                                                  Appendix 2

                               Glossary of Terms

Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and
Losses (ALLL)       lease portfolio (including all binding commitments to lend). To the
                    extent not provided for in a separate liability account, the ALLL should
                    also be sufficient to absorb estimated loan losses associated with
                    off-balance-sheet loan instruments such as standby letters of credit.
Call Report         The report filed by a bank pursuant to 12 U.S.C. 1817(a)(1), which
                    requires each insured State nonmember bank and each foreign bank
                    having an insured branch which is not a Federal branch to make to the
                    Corporation reports of condition in a form and that shall contain such
                    information as the Board of Directors may require. These reports are
                    used to calculate deposit insurance assessments and monitor the
                    condition, performance, and risk profile of individual banks and the
                    banking industry.
Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop unsafe or unsound practices
                    or a violation of laws and regulations. A C&D may be terminated when
                    the bank’s condition has significantly improved and the action is no
                    longer needed or the bank has materially complied with its terms.
Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.
Federal Home        The Federal Home Loan Bank System provides liquidity to member
Loan Bank           institutions that hold mortgages in their portfolios and facilitates the
(FHLB)              financing of mortgages by making low-cost loans, called advances, to its
                    members. Advances are available to members with a wide variety of
                    terms to maturity, from overnight to long term, and are collateralized.
                    Advances are designed to prevent any possible loss to FHLBs, which
                    also have a super lien (a lien senior or superior to all current and future
                    liens on a property or asset) when institutions fail. To protect their
                    position, FHLBs have a claim on any of the additional eligible collateral
                    in the failed bank. In addition, the FDIC has a regulation that reaffirms
                    FHLB priority, and FHLBs can demand prepayment of advances when
                    institutions fail.




                                             28
                                                                                 Appendix 2

                               Glossary of Terms


Memorandum of       An informal corrective administrative action for institutions considered
Understanding       to be of supervisory concern, but which have not deteriorated to the
(MOU)               point where they warrant formal administrative action. As a general
                    rule, an MOU is to be considered for all institutions rated a composite 3.
Other Mortgage-     Other Mortgage-Backed Securities is a specific line item in a bank’s
Backed Securities   Report of Condition and Income (Call Report). Mortgage-Backed
                    Securities are debt instruments secured by an underlying pool of
                    mortgages. As monthly payments are made on these underlying
                    mortgages, the cash flow is distributed to bondholders according to the
                    terms of the bond. The Mortgage-Backed Security market is comprised
                    of two broad categories: mortgage pass-through securities and mortgage
                    derivative securities.
Problem Bank        A problem bank memorandum documents the FDIC’s concerns with an
Memorandum          institution and the corrective action in place or to be implemented and is
                    also used to effect interim rating changes on the FDIC’s systems.
Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325,
(PCA)               subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                    Regulations (C.F.R.), section 325.101, et. seq., implements section 38,
                    Prompt Corrective Action, of the FDI Act, 12 U.S.C. section 1831(o), by
                    establishing a framework for taking prompt supervisory actions against
                    insured nonmember banks that are less than adequately capitalized. The
                    following terms are used to describe capital adequacy: (1) Well
                    Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                    (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.
Troubled Asset      TARP is a program of the United States Department of the Treasury to
Relief Program      purchase assets and equity from financial institutions to strengthen the
(TARP)              financial sector.

Uniform Bank        The UBPR is an individual analysis of financial institution financial data
Performance         and ratios that includes extensive comparisons to peer group
Report (UBPR)       performance. The report is produced by the Federal Financial
                    Institutions Examination Council for the use of banking supervisors,
                    bankers, and the general public and is produced quarterly from Call
                    Report data submitted by banks.




                                            29
                                                               Appendix 3
                         Acronyms

ADC       Acquisition, Development, and Construction
ALLL      Allowance for Loan and Lease Losses
ASBD      Alabama State Banking Department
C&D       Cease and Desist Order
CAMELS    Capital, Asset Quality, Management, Earnings, Liquidity, and
          Sensitivity to Market Risk
CRE       Commercial Real Estate
DIF       Deposit Insurance Fund
DSC       Division of Supervision and Consumer Protection
FDI       Federal Deposit Insurance
FFIEC     Federal Financial Institutions Examination Council
FHLB      Federal Home Loan Bank
FIL       Financial Institution Letter
LIDI      Large Insured Depository Institution
MLR       Material Loss Review
MOU       Memorandum of Understanding
MWL       Mortgage Warehouse Lending
OCC       Office of the Comptroller of the Currency
OIG       Office of Inspector General
ORL       Offsite Review List
PCA       Prompt Corrective Action
PFR       Primary Federal Regulator
REMIC     Real Estate Mortgage Investment Conduit
ROE       Report of Examination
SIGTARP   Special Inspector General for the Troubled Asset Relief Program
TARP      Troubled Asset Relief Program
TBW       Taylor, Bean & Whitaker Mortgage Corporation
UBPR      Uniform Bank Performance Report
UFIRS     Uniform Financial Institutions Rating System



                                30
                                                                                      Appendix 4
                                    Corporation Comments



Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990               Division of Supervision and Consumer Protection

                                                                         April 23, 2010
TO:               Stephen Beard
                  Assistant Inspector General for Material Loss Reviews

                  /Signed/
FROM:             Sandra L. Thompson
                  Director

SUBJECT:          Draft Audit Report Entitled, Material Loss Review of Colonial Bank, Montgomery,
                  Alabama (Assignment No. 2009-056)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of Colonial
Bank, Montgomery, Alabama (Colonial) which failed on August 14, 2009. This memorandum is
the response of the Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft
Report (Report) received on April 9, 2010.

The Report concludes Colonial failed because the Board of Directors (Board) and management
did not develop and implement adequate risk management practices pertaining to: its significant
concentration in acquisition, development, and construction (ADC) loans and investments in
higher-risk, mortgage-backed securities; loan underwriting, credit administration, and risk
analysis and recognition; and mortgage warehouse lending operations. Colonial’s decision to
aggressively pursue rapid growth by acquiring 25 banks in high growth residential markets, such
as Florida, Nevada, and Georgia, along with concentrating the loan portfolio in ADC loans,
eventually led to large losses and capital and liquidity deficiencies.

In the years preceding Colonial’s failure, the Office of the Comptroller of the Currency, the
FDIC and the Alabama State Banking Department each expressed concern about Colonial’s risk
management practices and made recommendations for improvement. However, Colonial’s
Board and management did not take adequate or timely actions to address these concerns and
recommendations, nor did they maintain a control environment commensurate with the growth,
size, and complexity of its operations.

After converting to a state-chartered institution in June 2008, Colonial was placed under DSC’s
continuous examination program; and ratings were adjusted and corrective actions taken as
warranted by Colonial’s practices and condition. Three months after becoming the Primary
Federal Regulator (PFR), the FDIC downgraded Colonial’s composite rating to a “3” in
September 2008, and subsequently executed a Memorandum of Understanding with Colonial in
December 2008. In May 2009, the FDIC downgraded Colonial’s composite rating to a “4,” and
one month later further downgraded Colonial’s composite rating to a “5” and issued a formal
Order to Cease and Desist.

In the Report, the OIG noted that FDIC has the authority to conduct special or “back-up”
examinations of insured institutions for which FDIC is not the primary federal regulator.
However, under the terms of an Interagency Agreement with the other PFRs, that examination
authority is limited for insured institutions that have a composite rating of “1” or “2”. In


                                                  31
                                                                              Appendix 4
                              Corporate Comments




recognition that greater information sharing is needed to adequately assess risks to the Deposit
Insurance Fund, the FDIC has proposed to the other PFRs modifications to strengthen that
Interagency Agreement. We are hopeful that a consensus can be reached on those changes in the
near future.

Thank you for the opportunity to review and comment on the Report.




                                          32
